                              SOCIAL SECURITY
                              Office of the Inspector General

                                     November 10, 2010

The Honorable Sam Johnson
Ranking Member
Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Johnson:

In an August 6, 2010 letter, you asked that we assist the Subcommittee in determining
whether the Social Security Administration (SSA) is strategically planning its facility
needs. Specifically, you requested information on the following.
•   Does SSA have a comprehensive strategic plan with regard to its facilities? What
    facilities are included in the plan (e.g. teleservice centers, field offices, etc.)? Does
    the plan address current and future facility needs?
•   Given the changing demographics, increased workloads, and technological
    advancements, what is the process and/or criteria used by SSA to determine: (1) the
    degree to which currently occupied space is being effectively utilized; (2) the type,
    number, and location of new facilities; and (3) placement of staff and/or equipment
    within all facilities?

As you know, my office is committed to combating fraud, waste, and abuse in SSA’s
operations and programs. Thank you for bringing your concerns to my attention. The
enclosed report provides the information requested. To ensure SSA is aware of the
information provided, we are forwarding a copy of this report to the Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                            Sincerely,




                                            Patrick P. O’Carroll, Jr.
                                            Inspector General

Enclosure
cc:
Michael J. Astrue
              SOCIAL SECURITY ADMINISTRATION         BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

The Social Security Administration’s
      Facilities Management

            A-13-11-21110




            November 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                         Background
OBJECTIVE
Our objective was to provide information concerning the Social Security Administration’s
(SSA) facilities management.

BACKGROUND
SSA administers its programs and services through a network of over 1,700 facilities
that consist of Government-owned and leased buildings (see Table 1). These facilities
make possible the delivery of approximately $700 billion in Social Security and
Supplemental Security Income benefits to about 60 million people each year. (See
Appendix C for a description of SSA’s facilities.)

                                      Table 1: SSA’s Facilities
                                      As of September 9, 2010

                SSA                           Type of Facility                   Number of
             Component 1                                                          Facilities
                            Field Offices (FO)                                      1,287 2,3
                            Social Security Card Centers                                 8
              Deputy        Area Offices (AO)                                          54
           Commissioner for Regional Offices (RO)                                      10
             Operations     Teleservice Centers (TSC)                                  33
              (DCO)         Program Service Centers (PSC)                                6
                            Data Operations Center                                       1
                            DCO Total                                               1,399




1
    See Appendix D for component roles and responsibilities.
2
 This includes 31 resident stations. These are small, permanent facilities that usually have no on-site
management but report to a parent FO and serve a specific geographical segment of the district’s service
area. SSA, Administrative Instructions Manual System (AIMS), GAM 12.05.04.
3
    DCO plans to open two additional FOs in Lawrence, Massachusetts, and Paris, Texas, by Spring 2011.


The Social Security Administration’s Facilities Management (A-13-11-21110)                               1
                SSA                           Type of Facility                    Number of
              Component                                                            Facilities
                            ODAR Headquarters                                             1
                            National Hearing Centers (NHC)                                5
               Office of    Satellite Offices (SO)                                      12 4
               Disability   Video Hearing Centers                                         6
           Adjudication and ROs                                                         10
            Review (ODAR) Permanent Remote Sites (PRS)                                 159
                            Hearing Offices                                            152 5
                            ODAR Total                                                 345
                            Office Space                                                23
               Office of    Support Space                                                 3
               Facilities   Warehouses                                                    3
             Management     Data Centers                                                  2
                (OFM) 6     Office Space/Warehouse                                        1
                            Child Care Center                                             1
                            OFM Total                                                   33
           TOTAL SSA FACILITIES                                                      1,777

SSA leases its office space either directly from the General Services Administration
(GSA) 7 or with the assistance of GSA. In some instances, GSA delegates its
responsibility for maintenance and upkeep of the buildings. GSA delegated 18 buildings
to SSA, meaning that SSA is responsible for the maintenance and upkeep of these
buildings. (See Appendix B for the delegated buildings.) SSA spends approximately
$1 billion annually on its facilities costs.

On August 6, 2010, we received a letter from Representative Sam Johnson, Ranking
Member, House Subcommittee on Social Security, Committee on Ways and Means,
regarding SSA’s facilities. To assist the Subcommittee in determining whether SSA is
strategically planning its facility needs, Congressman Johnson requested that we
provide information on the following.



4
 By the end of Fiscal Year (FY) 2011, ODAR is expected to have 10 SOs. According to ODAR, two SOs
(Madison, Wisconsin, and Rochester, New York) will be converted to full hearing offices.
5
 Two new hearing offices opened in September 2010 (SSA reports the Fayetteville, North Carolina, and
Valparaiso, Indiana, hearing offices opened on September 13, 2010). An additional 12 hearing offices
are planned for FY 2011. By the end of FY 2011, ODAR is expected to have 166 hearing offices.
6
    OFM is responsible for the buildings that comprise SSA’s Headquarters.
7
  Through its two largest offices, the Public Buildings Service and the Federal Acquisition Service, GSA
provides workspace to Federal civilian employees, oversees the preservation of historic buildings, and
facilitates the purchase of goods and services from commercial vendors. With regard to facilities
management, GSA serves as an agent in acquiring, managing, and disposing of real property used by
SSA. GSA issues standards and criteria for effective use of office and other space. Further, GSA
oversees construction and other contractual relationships, such as repairs, improvements, and
maintenance related to space acquisition and management.


The Social Security Administration’s Facilities Management (A-13-11-21110)                                 2
•   Does SSA have a comprehensive strategic plan with regard to its facilities? What
    facilities are included in the plan (e.g., teleservice centers, field offices, etc.)? Does
    the plan address current and future facility needs?

•   Given the changing demographics, increased workloads, and technological
    advancements, what is the process and/or criteria used by SSA to determine:
    (1) the degree to which currently occupied space is being effectively utilized; (2) the
    type, number, and location of new facilities; and (3) placement of staff and/or
    equipment within all facilities?

To address Representative Johnson’s request, we gathered and reviewed information
provided by the following components of SSA: DCO, ODAR, and OFM. (See
Appendix E for more information on our scope and methodology.)




The Social Security Administration’s Facilities Management (A-13-11-21110)                   3
                                                             Results of Review
QUESTION 1: Does SSA have a comprehensive strategic plan with regard to its
facilities? What facilities are included in the plan (e.g. teleservice centers, field
offices, etc.)? Does the plan address current and future facility needs?

SSA does not have a single, comprehensive strategic plan regarding its facilities.
Instead, three of SSA’s components, DCO, ODAR, and OFM, are responsible for
planning the facilities under their purview. DCO has been documenting its FO planning
since at least 2005, while ODAR instituted a formal documentation process in 2010.
Further, OFM and GSA hired a consulting firm to develop a September 2009 draft
Master Housing Plan (MHP) for facilities considered part of Headquarters.

We found although DCO and ODAR have a similar planning tool—Service Delivery
Assessments (SDA)—they have different processes. Additionally, OFM is responsible
for the buildings that comprise SSA’s Headquarters and maintains a different planning
tool, the MHP. Therefore, we reported on each component separately.

STRATEGIC PLAN

DCO
DCO reported it does not have a written strategic plan with regard to the management
of its facilities. However, DCO stated it has a plan that involves a two-part process.
Each year, DCO submits a comprehensive annual space plan to SSA’s Office of
Budget, Finance and Management that outlines its current space as well as the
component’s projected needs. The space plan is updated annually and includes
projections for the following 2 years. We obtained and reviewed the FY 2012 space
budget for SSA’s field offices. In FYs 2011 and 2012, DCO is considering facilities
changes as follows: relocate 257 FOs, 8 expand 10 FOs, and reduce 6 FOs.9 (See
Appendix F for a list of these offices.)

According to DCO, the second part of its planning process involves Space Allocation
Standards (SAS) that outline the amount of space required in FOs. The calculation is
based on current and projected staffing levels and considers space needed for manager
offices, training rooms, and supply and storage rooms. Also, the calculation includes
the amount of reception area space and the number of reception windows needed to
provide adequate service to the public. In addition to the amount of needed space, the
SAS outlines the location of the FO, location of SSA’s space in the building, availability
of parking and public transportation, and security features.

8
  DCO reported there are multiple reasons why a FO may be relocated. For example, an expiring lease,
a shift in claimant population or staffing, and unsatisfactory office conditions or services provided by the
lessor. Generally, the FO will remain in the same city/district, unless there is justification why the office
should be moved to a different service area.
9
    The FO expansions and reductions relate to an increase or decrease of office space (square footage).


The Social Security Administration’s Facilities Management (A-13-11-21110)                                      4
Further, DCO reported it has a Large Site Advisory Board 10 that reviews and approves
space requests and modifications related to its large sites, including ROs, PSCs, and
TSCs. DCO believes this process not only prioritizes the needs for these facilities, it
addresses funding. For its smaller facilities—FOs, Social Security card centers, and
area offices—space requests are reviewed and approved by SSA’s Office of Public
Service and Operations Support and OFM, then forwarded to GSA.

ODAR
ODAR also reported it does not have a written strategic plan with regard to its facilities.
However, according to ODAR, its facilities are a key component of the Commissioner’s
Hearings Backlog Elimination Plan. It is a four-part plan developed by the Agency to
eliminate the hearings backlog and prevent its recurrence, based on (1) using fast-
tracked initial determinations; (2) improving hearing office procedures; (3) increasing
adjudicatory capacity; and (4) increasing efficiency with automation and improved
business processes. As part of this plan, ODAR is targeting new offices based on an
analysis of the Agency’s current and forecasted workloads.

OFM
OFM reported the Agency has a comprehensive strategic plan regarding Headquarters’
facilities. Specifically, the Agency maintains an MHP that was developed with GSA.
According to OFM, the MHP provides strategic guidance on developing and
implementing the Agency’s space, building, and realty management programs for
Headquarters’ facilities. Further, OFM stated the MHP provides a framework for
developing specific housing plans and supports the Agency’s planning, budgeting, and
implementation of facility infrastructure changes. According to OFM, the MHP is
periodically refreshed. The latest draft MHP, dated September 2009, is being updated
to reflect the receipt of American Recovery and Reinvestment Act of 2009 11 funds to
replace the National Computer Center.

FACILITIES INCLUDED IN THE STRATEGIC PLAN

DCO
According to DCO, its annual space plan and SAS support all its facilities, which include
over 1,300 Operations facilities. However, based on our review of the annual space
plan and SAS—which DCO considers its strategic plan relative to facilities—only FOs
were included. The remaining 112 offices (8 percent)12 were not discussed in either
document.




10
     The advisory board consists of executives from ROs and DCO at Headquarters.
11
     Pub. L. No. 111-5. Title VIII, 123 Stat. 115, 185.
12
  This includes 8 Social Security card centers, 54 area offices, 10 ROs, 33 TSCs, 6 PSCs, and 1 data
operations center.


The Social Security Administration’s Facilities Management (A-13-11-21110)                             5
ODAR
Based on our review of actions SSA plans to take to reduce the hearings backlog, 13 we
confirmed some of ODAR’s offices were part of the Agency’s strategies to increase
adjudicatory capacity and increase efficiency with automation and improved business
processes. We found NHCs were discussed in SSA’s strategies. The hearing backlog
initiatives also included changes to hearing offices, such as the addition of video
hearing equipment and co-location with FOs. However, other ODAR facilities—ROs,
PRSs, Video Hearing Centers, and ODAR headquarters were not specifically discussed
in these documents.

OFM
OFM reported the Agency’s MHP included 33 Headquarters buildings in the greater
Baltimore, Maryland, area, Washington, D.C., and Durham, North Carolina. Based on
our review, the current MHP included 27 Government-owned and leased buildings in
the Baltimore metropolitan area. However, the remaining eight Headquarters facilities
were omitted from the plan (see Table 2). 14

          Table 2: HQ Facilities Not Included in SSA’s Master Housing Plan
                        Building                           Location
       Metro West                                              Baltimore, MD (Downtown)
       Maintenance Warehouse                                   Baltimore, MD
       2700 Lord Baltimore                                     Baltimore, MD
       400 Virginia Ave                                        Washington, DC
       500 E Street, International Trade Commission Building   Washington, DC
       Second Support Center                                   Durham, NC
       Research Triangle Park Office                           Durham, NC
       Temporary Warehouse                                     Durham, NC

CURRENT AND FUTURE FACILITY NEEDS

DCO
DCO stated that future needs of SSA’s FOs are evaluated through the SDA process.
An SDA is performed on 20 percent of SSA’s FOs nationwide each year. SDAs
consider projected changes in workloads, local populations, demographic trends, and
area-specific factors that may affect staffing levels in a given location over a 5-year
timeframe. (See Appendix G for more details regarding the SDA process.) DCO
reported it determines space needs based on the SDAs and SAS.

13
  We reviewed the (1) Statement of Michael J. Astrue, Commissioner, Social Security Administration,
Statement on SSA’s Plans to Reduce the Disability Backlogs: Before the Senate Committee on Finance
Hearing on Funding Social Security’s Administrative Costs: Will the Budget Meet the Mission (May 23,
2007); (2) Summary of Initiatives to Eliminate the SSA Hearings Backlog addendum related to the
Commissioner’s May 23, 2007 statement; and (3) SSA, Plan to Eliminate the Hearing Backlog and
Prevent Its Recurrence, FY 2008 Annual Report.
14
  Although the MHP is dated September 2009, the work completed to formulate the plan occurred from
November 2006 to December 2007. Therefore, several changes may have occurred after the plan was
developed. For example, the lease for two facilities expired in FY 2008. Also, SSA took possession of
the 2700 Lord Baltimore building and the Second Support Center after completion of the MHP.


The Social Security Administration’s Facilities Management (A-13-11-21110)                              6
According to DCO, changes to current space needs for Social Security card centers,
AOs, ROs, TSCs, and PSCs are addressed through the “normal funding process.” As
such, funds needed to renovate existing space are requested by the regions and
approved by Operations management.

ODAR
As part of the Commissioner’s Hearings Backlog Elimination plan, ODAR stated it is
targeting new offices based on an analysis of the Agency’s current and forecasted
workloads. ODAR reported it opened 13 new hearing offices and 3 new SOs in
FY 2010. In addition, ODAR plans to open a new NHC that will assist current hearing
offices nationwide with the heaviest backlogs. In 2011, ODAR plans to open an
additional 12 hearing offices and 4 SOs. (See Appendix H for a list of ODAR’s new
facilities.)

OFM
We obtained and reviewed OFM’s “pre-final draft” MHP, dated September 22, 2009.
When asked whether there is a final version, OFM reported that the pre-final draft is
considered the final version of the MHP, and the contractor will not be submitting any
additional revisions. According to the MHP, the purpose of the document is to guide the
growth of SSA Headquarters from 2008 and beyond. The plan evaluated ownership
and configuration of the properties; development potential in the local area; the quality
and physical condition of the buildings; occupancy characteristics; functional and space
requirements; characteristics of the local real estate market; and opportunities and
constraints inherent in the existing facilities. As a result of the evaluation, five potential
solutions were developed for implementation over a 10-year period. 15

In addition to the MHP, OFM reported the Agency established and maintains space
allocation standards and policies. The purpose of the SAS is to ensure Agency space
acquisition and use in SSA field and hearing offices nationwide are standardized to
meet security, environmental, operational, and cost-effectiveness requirements. SASs
are implemented through a field space management program that monitors space
planning and use to ensure requests for space adhere to the guidelines set forth.
According to OFM, SSA is reviewing the SAS and plans to incorporate Agency and
executive guidance into any revisions. This includes the June 10, 2010 Presidential
Memorandum, Disposing of Unneeded Federal Real Estate.




15
     The solutions included the addition of new buildings and renovation of existing buildings.


The Social Security Administration’s Facilities Management (A-13-11-21110)                        7
QUESTION 2: Given the changing demographics, increased workloads, and
technological advancements, what is the process and/or criteria used by SSA to
determine: (1) the degree to which currently occupied space is being effectively
utilized; (2) the type, number, and location of new facilities; and (3) placement of
staff and/or equipment within all facilities?

EFFECTIVE USE OF SPACE

According to GSA regulations, “Executive agencies must promote the optimum use of
space for each assignment at an economical cost to the Government, provide quality
workspace that is delivered and occupied in a timely manner, and assign space based
on mission requirements.” 16 Additionally, assignment and use of space services
provided should “maximize the value of Federal real property resources and improve
the productivity of the workers housed therein.” 17

DCO and ODAR reported that they perform SDAs on 20 percent of FOs and hearing
offices nationwide 18 each year. All offices must participate in the process at least once
every 5 years. 19 DCO and ODAR reported the SDAs consider various factors including
projected changes in workloads, local populations, services provided by GSA and the
lessor, and demographic trends. Also considered are area-specific factors that may
affect staffing levels in a given location, until the next SDA is completed in 5 years. For
both DCO and ODAR, SDAs are used to ascertain effective use of space, determine
whether the current space meets the office’s changing needs, and whether growth in
the area supports the need for a new facility. 20

According to OFM, office relocations typically occur when a lease expires. At that time,
the Agency determines its space needs based on the most recent SDA and current
staffing levels. To ensure the space request is in accordance with SAS, the request
requires executive approval from a Regional or Associate Commissioner.

We obtained and reviewed 58 SDAs completed by DCO and 15 SDAs completed by
ODAR. We confirmed the SDA process is used by DCO and ODAR to help evaluate
(1) the effective use of space, (2) the necessity for new offices or
realignment/consolidation of existing offices, and (3) staffing within the offices.




16
     GSA, Federal Management Regulation (FMR), Subchapter C, Part 102-79.20.
17
     Id at 102-79.15.
18
  SDAs are completed for FOs and hearing offices only. SDAs are not conducted for other DCO, ODAR,
and Headquarters facilities.
19
     DCO stated that SDAs were completed for all FOs over the past 5 years.
20
     See Appendix G for more details regarding the SDA process.


The Social Security Administration’s Facilities Management (A-13-11-21110)                       8
In addition to the SDA process, ODAR reported that it had other ways to determine the
effective use of currently occupied space. For example, ODAR stated its offices are
built in accordance with SAS. 21 Similar to the standards DCO uses, the SAS used by
ODAR provides an overview of its organizational structure and functions and outlines
the requirements for (1) the location of the facility in the community; (2) location of
SSA’s space in the building; (3) access for the physically disabled; (4) physical
protection and building security; (5) parking; (6) alterations, renovations, services, and
repairs; (7) space allocation; and (8) other general office space allowances and
requirements. As part of the oversight for space acquisition, space requests are
reviewed for compliance with the SAS used by ODAR.

Additionally, ODAR reported it has a negotiated agreement with the Agency’s
Association of Administrative Law Judges, International Federation of Professional and
Technical Engineers, and the American Federation of Labor and Congress of Industrial
Organizations (AFL-CIO). The agreement relates to the size of hearing rooms that
contain video teleconferencing equipment.

Further, for Headquarters facilities, OFM stated the Agency develops, reviews, and
updates occupancy vacancy plans and population studies that support effective space
use principles. The Agency uses staffing projections based on budget and human
resource data to develop Headquarters space plans and implement associated small-
and large-scale facility modifications. The Agency also incorporates each Headquarters
components’ specific needs, including co-location of staff and specific equipment and
infrastructure requirements, into its space plans. OFM believes this collaboration at all
levels of the Agency ensures that Headquarters facilities provide the most functional
and effective use of space for supporting the Agency’s mission.

TYPE, NUMBER, AND LOCATION OF NEW FACILITIES

DCO and ODAR also use the SDA process to assess the need for new hearing and
field offices. DCO, in conjunction with SDAs, has criteria for its field offices.
Specifically, level 1 and level 2 FOs 22 must meet certain criteria regarding service area
population, number of beneficiaries/recipients, type of claims, and staffing.




21
 These standards represent an agreement between GSA and SSA on the allocation of space for
ODAR’s facilities.
22
   For an FO to be considered level 1, its District Manager must report directly to the Area Director and
maintain at least two subordinate management staff. Additionally, the FO district must meet one of the
following: (1) a service area population of 500,000 or more; (2) service area has 75,000 or more Title II
beneficiaries in force; (3) service area has 12,500 or more Title XVI recipients in force; or (4) service area
population is 200,000 or more, there are 40,000 or more beneficiaries in force, and 3,000 or more
recipients in force. An FO may also meet different service area criteria to maintain its level 1 status but
not to upgrade to a level 1 office. An FO designated as level 2 has at least 1 management employee on
staff and does not meet the criteria for a level 1 office. DCO is the decision-making component for any
proposals to upgrade a level 2 office to level 1 status. SSA, AIMS, GAM, 12.05.14.


The Social Security Administration’s Facilities Management (A-13-11-21110)                                   9
Similarly, ODAR has other criteria for its facilities. ODAR stated new hearing offices are
opened to provide direct relief to the most heavily impacted offices in specific
geographic areas. ODAR determines video sites based on Commissioner initiatives,
backlog initiatives, and service area realignments. Sites are prioritized based on critical
needs and budget availability. The criteria for opening an SO are the number of
receipts 23 (at least 175 receipts per month) from the proposed area and cost
effectiveness for the Agency. Improved service delivery is also a consideration.

According to ODAR representatives, PRSs are usually leased space used by
administrative law judges (ALJ) who travel to the site to hold face-to-face or video
hearings. Generally, these sites are not staffed. The criteria for opening a new PRS
include the distance from the hearing office (75 miles or greater), number of receipts (at
least 25 to 30 receipts per month) from the proposed area, and cost-effectiveness for
the Agency. Improved service delivery is also a consideration. According to ODAR, a
PRS may be co-located with an SSA field office. In March 2008, ODAR identified
multiple co-location opportunities with FOs and continues to use this methodology when
offices are relocating. 24 For example, in FY 2010, there were 10 PRSs, 2 hearing
offices, and 1 satellite office co-located with FOs.

ODAR reported it established an oversight committee, with members representing the
various operational and administrative support divisions in ODAR headquarters, along
with representatives of its ROs, to coordinate the activities necessary for opening new
offices in 2010 and 2011. These activities include, but are not limited to, space
acquisition and design, systems support, staffing, training, labor-management issues,
and material resource acquisition. ODAR reported that justification for moving or
expanding an office is required. Decisions are dependent on a targeted workload
analysis for the geographic location in question.

PLACEMENT OF STAFF AND/OR EQUIPMENT IN FACILITIES

DCO reported the placement of staff in Operations facilities is addressed through SSA’s
national staffing allocation process that is based on projected changes in workloads.
DCO considers various factors when allocating staff, including budget, shifting priorities,
workload volumes, and productivity statistics.




23
     This refers to the number of workload items received by the office.
24
   In an addendum, Summary of Initiatives to Eliminate the SSA Hearings Backlog, to testimony given
before the Senate Committee on Finance Hearing on Funding Social Security’s Administrative Costs: Will
the Budget Meet the Mission (May 23, 2007), the Commissioner reported that co-locating remote hearing
sites with field offices will allow the Agency to provide more convenient locations for the public and will
conserve Agency resources.


The Social Security Administration’s Facilities Management (A-13-11-21110)                               10
While there is no process that incorporates future long-term technology into DCO’s
space planning, DCO reported it monitors new technology to ensure FOs have
adequate space to accommodate new equipment and incorporate technological
improvements as they become available. 25

According to ODAR, hearing offices are staffed with a cadre of up to 18 ALJs, supported
by a chief ALJ, director, group supervisors, administrative assistants, a systems
administrator, decisionwriters, and other clerical and technical staff members. The
number of receipts per office determines the number of ALJs assigned. Support staff is
assigned by a ratio of about 4.5 to each ALJ.

Relative to equipment, ODAR reported that each ALJ has a verbatim hearing recorder.
Additionally, all PRSs have video equipment installed or pending. SSA reported the use
of video conferencing equipment to conduct hearings not only saves travel time and
money, but also provides additional hearing room capacity. According to SSA, NHCs
allow the Agency to capitalize on new technologies, such as electronic disability folders
and video hearings.




25
   SSA’s Commissioner established a Future Systems Technology Advisory Panel. The mission of the
panel is to provide independent advice and recommendations on the future of systems technology and
electronic services at SSA for 5 to 10 years into the future. The panel’s recommendations are to provide
SSA with a roadmap of future systems technologies needed in carrying out its statutory mission. The
panel’s advice and recommendations relate to areas of future Internet applications, customer service,
privacy, and other areas relevant to SSA’s ability to serve the public.


The Social Security Administration’s Facilities Management (A-13-11-21110)                             11
                                                                   Conclusions
Based on the information provided by SSA, we concluded the Agency has various
processes, standards, plans, and assessments relative to its management of facilities.
Specifically, SDAs and SAS assist the Agency in determining the (1) degree to which
occupied space is used, (2) necessity for new offices or realignment/consolidation of
existing offices, and (3) placement of staffing/equipment within SSA’s facilities. Various
factors are considered relative to the placement of staff and equipment, such as the
budget, changing priorities, workloads, and productivity.

However, SSA does not have a single, comprehensive strategic plan that fully
addresses the current and future needs for all its facilities. Neither DCO nor ODAR had
a written strategic plan relative to its facilities. These two components account for
approximately 98 percent of SSA’s facilities. Although OFM maintained an MHP for
Headquarters facilities, the MHP was a study, rather than a strategic plan or vision for
the future. For example, the MHP did not discuss how increased workloads, staff
retirements, technological advancements, and other anticipated changes would impact
future facilities needs. Also, the alignment between the MHP and the Agency’s
Strategic Plan was not evident, such as how facility plans are integrated with SSA’s
long-term plans relative to service delivery. Further, the plan did not identify any
facilities goals, actions to timely achieve those goals, milestone dates related to the
required actions, or benchmarks for measuring success. The plan did not address
monitoring procedures that could be used to ensure actions stay on schedule.

In its comments for this report, SSA advised us that the pre-final draft MHP is the first of
several phases toward a comprehensive MHP. As the data-gathering phase is
completed, the Agency will begin to align the MHP with its new strategic planning goals,
which are currently under development. Further, SSA plans to incorporate anticipated
changes in workloads and workforce demographics, as well as technological
advancements.

As discussed previously, ODAR and DCO have begun coordinating space requirements
when opening new offices. However, there is an inherent risk that inefficiencies could
occur, such as duplication of work, because SSA does not have an integrated,
comprehensive long-term strategic plan. Further, individual components may not
consider all factors, such as technological advancements or other components’ needs,
when creating a strategic plan with regard to their facilities. We believe SSA should
create an Agency-wide strategic plan that addresses its current and future facility
needs. The plan should consider the changing demographics, increased workloads,
and technological advancements SSA will encounter in the future.

However, SSA does not agree with our assessment. SSA reported that while
requirements differ for DCO and ODAR, these organizations work closely to plan for
new space and co-location of the offices. The Agency reported DCO and ODAR
consider demographics, projected variations in workloads, and new technologies in its


The Social Security Administration’s Facilities Management (A-13-11-21110)                12
planning. Further, SSA stated that co-location provides local area network access to
ODAR offices previously housed in temporary space, and provides access to video
service delivery equipment to both organizations.

SSA should also incorporate future technology into its strategic planning process with
regard to facilities. In June 2010, SSA’s Future Systems Technology Advisory Panel
issued a report entitled Re-imaging Social Security, which discusses how the panel
envisions SSA will deliver services in the future through the use of technology. The
panel’s recommendations focused on electronic self-service options via the Internet,
video, kiosks, etc., all of which have the potential to significantly reduce the number,
type, and location of facilities needed. DCO acknowledged not incorporating future
long-term technology into its space planning. We believe SSA’s facilities planning
should include consideration of the Panel’s independent advice and recommendations.
Further, the Agency should indicate why the advice and/or recommendations are
incorporated or excluded from its facilities planning.

In response to our report, SSA stated it considers technological advances in its planning
to the extent possible. However, it is difficult to predict with absolute precision what
those advances might be. Additionally, SSA reported it recognizes the eventuality that
more claims will be processed electronically and has identified other trends through the
SDA process. The Agency will continue to monitor new technology and incorporate
technological improvements through the SDA process and adapt as needed.




The Social Security Administration’s Facilities Management (A-13-11-21110)             13
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Delegated Buildings
APPENDIX C – Facility Descriptions
APPENDIX D – Roles and Responsibilities
APPENDIX E – Scope and Methodology
APPENDIX F – Field Office Space Budget
APPENDIX G – Service Delivery Assessment Process
APPENDIX H – Office of Disability Adjudication and Review’s New Facilities




The Social Security Administration’s Facilities Management (A-13-11-21110)
                                                                             Appendix A

Acronyms
    ALJ                 Administrative Law Judge
    AIMS                Administrative Instructions Manual System
    AO                  Area Office
    DCO                 Deputy Commissioner for Operations
    FO                  Field Office
    FY                  Fiscal Year
    GAM                 General Administration Manual
    GSA                 General Services Administration
    MHP                 Master Housing Plan
    MRM                 Materiel Resources Manual
    NHC                 National Hearing Center
    OBM                 Office of Buildings Management
    ODAR                Office of Disability Adjudication and Review
    OFM                 Office of Facilities Management
    OIG                 Office of the Inspector General
    ORM                 Office of Realty Management
    PRS                 Permanent Remote Site
    PSC                 Program Service Center
    RO                  Regional Office
    SAS                 Space Allocation Standard
    SDA                 Service Delivery Assessment
    SO                  Satellite Office
    SSA                 Social Security Administration
    TSC                 Teleservice Center




The Social Security Administration’s Facilities Management (A-13-11-21110)
                                                                             Appendix B

Delegated Buildings
      Component                         Building                             Location
                            Altmeyer                            Baltimore, Maryland
                            Operations                          Baltimore, Maryland
                            Annex                               Baltimore, Maryland
                            East Low Rise                       Baltimore, Maryland
                            East High Rise                      Baltimore, Maryland
                            West Low Rise                       Baltimore, Maryland
Headquarters, Office of
                            West High Rise                      Baltimore, Maryland
Facilities Management
                            Child Care Center                   Baltimore, Maryland
                            Supply Building                     Baltimore, Maryland
                            National Computer Center            Baltimore, Maryland
                            Utility Building                    Baltimore, Maryland
                            Metro West                          Baltimore, Maryland
                            Security West Low                   Baltimore, Maryland
                            Harold Washington Social            Chicago, Illinois
                            Security Center
                            Frank Hagel Federal Building        Richmond, California
                            North Eastern Program               Jamaica, New York
 Deputy Commissioner
                            Service Center
    for Operations
                            Mid-Atlantic Program Service        Philadelphia, Pennsylvania
                            Center
                            Wilkes-Barre Data Operations        Wilkes-Barre, Pennsylvania
                            Center




The Social Security Administration’s Facilities Management (A-13-11-21110)
                                                                             Appendix C

Facility Descriptions


     Facility                                  Facility Description

Headquarters          The Social Security Administration’s (SSA) Headquarters facilities
                      are in the Baltimore, Maryland, metropolitan area, Washington, DC,
                      and Durham, North Carolina. The facilities include office space,
                      warehouses, support space, data centers, and a child care center.

Regional Office       SSA has 10 ROs in Atlanta, Georgia; Boston, Massachusetts;
(RO)                  Chicago, Illinois; Dallas, Texas; Denver, Colorado; Kansas City,
                      Missouri; New York, New York; Philadelphia, Pennsylvania; San
                      Francisco, California; and Seattle, Washington. The ROs provide
                      program leadership and technical direction for SSA’s programs and
                      systems activities. In addition, the Office of the Regional
                      Commissioner issues regional operating procedures for SSA’s
                      programs and evaluates program effectiveness.

Area Office           There are 53 area offices operating nationwide as well as 1 Area
                      Office in San Juan, Puerto Rico. These offices provide program
                      leadership and technical direction to the field offices and card
                      centers.




The Social Security Administration’s Facilities Management (A-13-11-21110)               C-1
     Facility                                  Facility Description
                      SSA serves the needs of Americans in 1,287 FOs in all 50 States,
Field Office (FO)
                      as well as the District of Columbia, Puerto Rico, the Virgin Islands,
                      Guam, American Samoa, and the Northern Mariana Islands. FOs
                      provide primary points for face-to-face contact with the public.

                      FOs are considered the backbone of the Agency, as they are the
                      largest direct service component providing a complete range of
                      services to persons needing to conduct Social Security business by
                      personal visit, telephone, or Internet.

                      Field employees manage and process a wide range of workloads
                      including initial claims (Retirement, Survivors, Disability, Medicare,
                      and Supplemental Security Income); reconsiderations and appeals;
                      stewardship workloads (Redeterminations, Limited Issues, and
                      continuing disability reviews); enumeration; Medicare Part D and
                      Income Related Monthly Adjustment Amount; post-entitlement
                      events, such as change of address, direct deposit, report of
                      earnings, monthly wage reporting, earnings’ records corrections,
                      overpayments/underpayments, representative payee
                      determinations and accountings, and food stamp applications.
Social Security       SSA has eight Card Centers in Queens, New York; Brooklyn, New
Card Center           York; Orlando, Florida; North Phoenix, Arizona; Downtown
                      Phoenix, Arizona; Las Vegas, Nevada; Minneapolis, Minnesota;
                      and Sacramento, California. The Card Centers are centralized
                      processing sites for all Social Security number applications for area
                      residents.




The Social Security Administration’s Facilities Management (A-13-11-21110)               C-2
     Facility                                  Facility Description

Teleservice           There are 33 TSCs operating nationwide. The TSCs handle
Center (TSC)          general inquiries, FO referrals, simple post-entitlement workloads
                      (for example, change of address, direct deposit, Medicare
                      replacement card) and other Agency referrals. Additionally, the
                      TSCs inform the public of the purposes and provisions of programs
                      administered by SSA, and inform callers of their rights and
                      responsibilities. TSC agents also establish appointments for callers
                      to file claims.

Program Service       There are six PSCs in Jamaica, New York; Philadelphia,
Center (PSC)          Pennsylvania; Birmingham, Alabama; Chicago, Illinois; Kansas
                      City, Missouri; and Richmond, California. PSCs are large facilities
                      staffed with employees specially trained to handle complex claims
                      and post-entitlement actions that are required to establish and
                      update beneficiary records.

Wilkes-Barre Data     The data operations center is in Wilkes-Barre, Pennsylvania. It
Operations Center     was established in 1945 as a sub-unit of SSA’s Office of Central
and Utility           Operations. The data operations center is responsible for various
Building              customer service workloads such as offering a claims service
                      option that enables customers to file claims at the time of their call,
                      as well as providing technical and benefit information on all SSA-
                      administered programs in response to telephone and internet
                      inquiries. Other responsibilities include providing network and
                      system support, equipment inventory, operational analysis and
                      support, scanning various workloads, retrieving and storing
                      documents, overseeing and directing clerical and data entry, and
                      keying and validation of information on various workloads.




The Social Security Administration’s Facilities Management (A-13-11-21110)                 C-3
        Facility                                    Facility Description

Office of Disability      ODAR has 10 ROs in Atlanta, Georgia; Boston, Massachusetts;
Adjudication and          Chicago, Illinois; Dallas, Texas; Denver, Colorado; Kansas City,
Review (ODAR)             Missouri; New York, New York; Philadelphia, Pennsylvania; San
Regional Offices          Francisco, California; and Seattle, Washington. ODAR’s ROs
                          oversee and support 5 to 34 hearing offices within their regional
                          jurisdiction. The offices are staffed with a regional chief
                          administrative law judge (ALJ), a regional management officer, 1 to
                          3 regional directors of operations and administration, 1 to 2 regional
                          attorneys, and 2 to 3 branch chiefs and several management
                          analysts and clerical support staff members.
                          In addition, many of the regions have 1 or 2 specialized units (case
                          pulling or decision writing), staffed with decision writers and
                          technical staff, in space within the RO or in hearing office space.

ODAR Hearing              There are 154 hearing offices nationwide. 1 The offices are staffed
Offices                   with a cadre of up to 18 ALJs, supported by a hearing office chief
                          ALJ, hearing office director, group supervisor(s), administrative
                          assistant(s), a systems administrator, decision writers, and other
                          clerical and technical staff members.

ODAR Satellite            ODAR maintains 12 satellite offices in Rochester, New York; Fort
Offices (SO)              Myers, Florida; Marquette, Michigan; Madison, Wisconsin;
                          Harlingen, Texas; Boise, Idaho; Helena, Montana; Casper,
                          Wyoming; Rapid City, South Dakota; Sioux Falls, South Dakota;
                          Eureka, California; and Reno, Nevada. 2 SOs are hearing offices,
                          usually staffed with 1 to 3 ALJs and have similar, but smaller
                          support staff requirements than a hearing office with support staff
                          supervision provided by at least one group supervisor. SOs
                          provide support to parent hearing offices.




1
 As of September 9, 2010, there were 152 hearing offices. However, the Fayetteville, North Carolina,
and Valparaiso, Indiana, hearing offices opened on September 13, 2010.
2
    This information was as of September 9, 2010.


The Social Security Administration’s Facilities Management (A-13-11-21110)                             C-4
     Facility                                  Facility Description

National Hearing      There are five NHCs in St. Louis, Missouri; Falls Church, Virginia;
Centers (NHC)         Chicago, Illinois; Albuquerque, New Mexico; and Baltimore,
                      Maryland. The goal in opening NHCs is to easily transfer
                      workloads from heavily backlogged hearing offices through use of
                      electronic files, allowing these facilities to target assistance to
                      specific areas of the country. ALJs can hold hearings and issue
                      decisions on electronic hearings from the NHCs.
                      NHCs are staffed with supervising ALJs, decision writers and
                      clerical support staff members. ODAR is testing different staffing
                      options within the NHCs. The NHCs are managed by the Office of
                      the Chief ALJ.

ODAR Permanent        There are 159 PRSs in SSA’s 10 regions. PRSs are usually leased
Remote Sites          space used by ALJs who travel to the site to hold face-to-face or
(PRS)                 video hearings. Generally there is no staff; however, each ALJ is
                      supported by a verbatim hearing recorder. At a minimum, the
                      leased space consists of a hearing room, reception/waiting area
                      space, and an attorney/client conference room.




The Social Security Administration’s Facilities Management (A-13-11-21110)              C-5
                                                                             Appendix D

Roles and Responsibilities
According to Social Security Administration (SSA) policy, the Agency is required “. . . to
provide suitable space and facilities and a healthy work environment in the most
economic and efficient manner feasible. The Office of the Deputy Commissioner for
Budget, Finance and Management, Office of Facilities Management (OFM) is
responsible for managing and overseeing SSA’s real property and space management
programs at the headquarters complex and the Office of Realty Management (ORM) is
responsible for field components.” 1

OFM – Manages SSA-wide material and facilities management programs. Further,
OFM ensures that facilities planning, design, and space use align with the Agency’s
strategic goals and objectives. OFM is also responsible for SSA’s national real property
program, which includes short- and long-range planning; design, construction, and
leasing of central office and large field facilities; maintenance, repair, and construction
projects; and policy development related to these operations and facilities. The
following components within OFM have facility management responsibilities.

•     ORM – Directs SSA’s national real property program including short- and long-range
      capital planning, design, construction, building management, cost savings initiatives,
      and asset management. In addition, ORM directs central office and regional
      prospectus-level renovation projects, energy, project, and acquisition management,
      use of space, and site preparation guidelines for Agency-wide automation initiatives.
      ORM is also responsible for the development and implementation of policies,
      procedures, and technical assistance to support the programs it directs. Further,
      ORM is SSA’s representative to other agencies in all these areas, and participates in
      the development of Government-wide policies and procedures.

•     Office of Long-Range Facilities Planning – Develops, implements, and guides the
      strategic direction of Agency space and building and management realty programs.
      Further, this office is responsible for maintenance of the Agency’s Master Housing
      Plan.




1
    SSA, AIMS, MRM 01.01.02.C.


The Social Security Administration’s Facilities Management (A-13-11-21110)               D-1
•     Office of Buildings Management (OBM) – Oversees the daily operations,
      maintenance, and repair at SSA’s main complex and outlying buildings. OBM
      comprises the Divisions of Main Complex Management, the National Computer
      Center Buildings Management, and Outlying Buildings Management. OBM provides
      facilities and building management services that include long- and short-range space
      planning, small- and large-scale facility modifications, conference room
      management, and a maintenance program. Working as a team, building managers,
      space managers, management analysts, and custodial, landscape, and mechanical
      shops, ensures SSA employees are housed in a comfortable and healthy
      environment and provide responsive customer service.

Office of Operations – The Associate Commissioner for the Office of Public Service
and Operations Support is responsible for facilities management within the Office of
Operations. However, each Regional Office has a Facilities Team or Center for Materiel
Resources that manages its respective region’s facilities needs. SSA policy states,
“The Regional Commissioners have the overall real property and space management
responsibility for their respective regions to ensure that all SSA employees are provided
sufficient space and adequate facilities to fulfill their missions.” 2

Office of Disability Adjudication and Review (ODAR) – The Office of Budget,
Facilities, and Security oversees facilities management within ODAR. The Division of
Materiel Resources, a component within this office, is responsible for administering
ODAR’s space management program to provide for the acquisition, assignment, and
utilization of space, including the design for office layouts and work areas to ensure
optimum use and management of facilities.




2
    SSA, AIMS, MRM, 01.01.03.B3.


The Social Security Administration’s Facilities Management (A-13-11-21110)               D-2
                                                                             Appendix E

Scope and Methodology
We collected and reviewed information specific to the questions in an August 6, 2010
letter from the Ranking Member of the House Subcommittee on Social Security. The
letter requested our assistance in determining whether the Social Security
Administration (SSA) was strategically planning its facility needs.

To achieve our objective, we:

   •   Reviewed relevant Federal laws and regulations and SSA guidance.

   •   Reviewed prior Office of the Inspector General and Government Accountability
       Office reports related to facilities.

   •   Reviewed various documents regarding SSA’s facilities including the master
       housing plan, space allocation standards, field office space budget, space
       acquisition process, staffing allocation process, and office locations.

   •   Obtained and reviewed 73 service delivery assessments completed for SSA’s
       hearing and field offices.

   •   Interviewed staff from SSA’s Offices of Operations, Facilities Management, and
       Disability Adjudication and Review.

We performed our review in Baltimore, Maryland, in August and September 2010. The
primary entities reviewed were the Offices of the Deputy Commissioner for Budget,
Finance and Management; Operations; and Disability Adjudication and Review. We
conducted our review in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspections.




The Social Security Administration’s Facilities Management (A-13-11-21110)
                                                                              Appendix F

Field Office Space Budget
 Table 1: Fiscal Year (FY) 2011 Social Security Administration (SSA) Field Office
                                  Relocations

                                                                      SQ.             Effective
                                             Current    Proposed     Foot        %     Date of
 Region                 City        State    SQ. Feet   SQ. Feet   Change    Change   Change
    1     Roslindale                 MA        6,624      7,540       916      14%    10/01/10
    4     Port St. Lucie             FL       12,726     16,505      3,779     30%    10/01/10
    2     Egg Harbor Township        NJ       11,321     10,789      -532      -5%    10/12/10
    1     North Adams                MA        3,450      4,085       635      18%    10/15/10
    6     Palestine                  TX        6,270      7,302      1,032     16%    10/15/10
    5     Wyandotte                  MI        7,992      9,972      1,980     25%    10/28/10
    9     Van Nuys                   CA       16,672     19,498      2,826     17%    10/30/10
    1     Norwich                    CT        4,600      5,778      1,178     26%    11/01/10
    4     Alexander City             AL        5,598      7,000      1,402     25%    11/01/10
    4     Sanford                    NC        6,270      8,622      2,352     38%    11/01/10
    5     Springfield                IL       16,675     16,828       153       1%    11/01/10
    5     Minneapolis SW             MN        8,140     15,273      7,133     88%    11/01/10
    9     Richmond TSC               CA       18,392     30,416    12,024      65%    11/01/10
    9     Flagstaff                  AZ        4,545      7,480      2,935     65%    11/01/10
    9     Corona                     CA        6,800      9,720      2,920     43%    11/01/10
    6     Minden                     LA        5,832      7,821      1,989     34%    11/15/10
    9     Fresno SE                  CA       13,660     13,250      -410      -3%    11/15/10
    2     Ogdensburg                 NY        5,980      7,557      1,577     26%    11/30/10
    2     San Patricio               PR        8,528      6,905     -1,623    -19%    11/30/10
    4     Naples                     FL        8,499      8,935       436      5%     12/01/10
    4     Morrow                     GA       17,834     19,015      1,181      7%    12/01/10
    4     McComb                     MS        5,505      7,073      1,568     28%    12/01/10
    4     Shelby                     NC       12,475     12,475        0        0%    12/01/10
    4     Reidsville                 NC        4,900      8,126      3,226     66%    12/01/10
    5     Grand Rapids               MI       34,712     29,418     -5,294    -15%    12/01/10
    8     Cheyenne                   WY        6,353      7,375      1,022     16%    12/01/10
    8     Trinidad                   CO        2,720      3,457       737      27%    12/01/10
    8     Rapid City                 SD        9,042      9,537       495      5%     12/01/10
    9     Lihue                      HI        2,657      3,157       500      19%    12/01/10
   10     Kent                       WA       10,515     13,708      3,193     30%    12/01/10
    4     Jackson                    AL        5,450      6,131       681      12%    12/03/10
    2     Glassboro                  NJ        6,474     10,094      3,620     56%    12/14/10
    6     New Iberia                 LA        5,399      7,213      1,814     34%    12/15/10
    6     Fort Worth (S)             TX       10,469     15,843      5,374     51%    12/15/10
    5     Roseville                  MI        9,545     10,715      1,170     12%    12/31/10
    5     Evansville                 IN       11,997     14,000      2,003     17%    12/31/10
    9     Glendale                   AZ       15,444     17,334      1,890     12%    12/31/10
    4     Rocky Mount                NC        8,360      9,804      1,444     17%    01/01/11
    4     Beaufort                   SC        4,743      5,474       731      15%    01/01/11
    4     Bennettsville              SC        5,181      5,019      -162      -3%    01/01/11
    8     Grand Junction             CO        7,572      7,588       16        0%    01/01/11
    1     Bridgeport                 CT        9,465     13,478      4,013     42%    02/01/11
    4     Miami North                FL       11,124     14,082      2,958     27%    02/01/11




The Social Security Administration’s Facilities Management (A-13-11-21110)                        F-1
                                                                             SQ.             Effective
                                                    Current    Proposed     Foot         %    Date of
 Region                 City                State   SQ. Feet   SQ. Feet   Change    Change   Change
   4      LaGrange                           GA       6,328      7,279       951       15%   02/01/11
   4      Middlesboro                        KY       3,951      7,662      3,711      94%   02/01/11
   9      El Centro                          CA      10,189     11,096       907        9%   02/01/11
   9      Tucson                             AZ      16,212     21,929      5,717      35%   02/01/11
   2      San Juan Pr                        PR      11,516      8,290     -3,226     -28%   02/09/11
   6      Dallas (Oak Cliff)                 TX      17,534     17,756       222        1%   02/15/11
   5      Traverse City                      MI       4,012      9,000      4,988    124%    02/28/11
   1      Waltham                            MA       4,933      6,364     1,431       29%   03/01/11
   2      Ave. X Brooklyn                    NY      23,759     23,522      -237       -1%   03/01/11
   2      Melville                           NY      11,658     13,128      1,470      13%   03/01/11
   4      Anniston                           AL       9,929     10,850       921        9%   03/01/11
   4      Tuscaloosa                         AL      12,083     16,798      4,715      39%   03/01/11
   4      Leesburg                           FL       8,498     11,962      3,464      41%   03/01/11
   4      Ft. Lauderdale                     FL      13,150     26,653    13,503     103%    03/01/11
   4      Ft. Lauderdale TSC                 FL      36,085     31,994     -4,091     -11%   03/01/11
   4      Marianna                           FL       4,012      5,338     1,326       33%   03/01/11
   4      Ocala                              FL      14,800     16,117      1,317       9%   03/01/11
   4      Port Charlotte                     FL       6,829      7,636       807       12%   03/01/11
   4      Sarasota                           FL       9,761      8,294     -1,467     -15%   03/01/11
   4      Swainsboro                         GA       5,171      5,626       455       9%    03/01/11
   4      Lexington                          KY      14,384     18,792      4,408      31%   03/01/11
   4      Salisbury                          NC       8,045     10,290      2,245      28%   03/01/11
   4      Chattanooga                        TN      22,374     19,773     -2,601     -12%   03/01/11
   5      Cambridge                          OH       3,253      4,118       865       27%   03/01/11
   7      Independence                       MO      13,002     16,800      3,798      29%   03/01/11
   7      Park Hills                         MO       6,543      8,096      1,553      24%   03/01/11
   4      Decatur                            AL       9,768      9,768        0         0%   03/15/11
   5      Joliet                             IL      10,458     11,559     1,101       11%   03/15/11
   6      Jonesboro                          AR      12,084     16,439      4,355      36%   03/15/11
   6      Covington                          LA       6,803     12,231      5,428      80%   03/15/11
   7      Iowa City                          IA       4,648      5,971      1,323      28%   03/30/11
   2      Downtown                           NY      17,053     12,264     -4,789     -28%   03/31/11
   4      Clarksdale                         MS       6,103      6,588       485        8%   03/31/11
   4      Greenville                         MS       6,441      7,964      1,523      24%   03/31/11
   1      Gardner                            MA       2,688      4,751      2,063      77%   04/01/11
   2      White Plains                       NY       8,690      7,915      -775       -9%   04/01/11
   2      Far Rockaway Queens                NY       7,475      8,320       845       11%   04/01/11
   2      Oswego                             NY       5,198      6,783      1,585      30%   04/01/11
   4      Delray Beach                       FL      11,645     13,221      1,576      14%   04/01/11
   4      Orangeburg                         SC       7,000      7,866       866       12%   04/01/11
   5      Ironton                            OH       5,750      6,100       350        6%   04/01/11
   5      Lorain                             OH       8,608     10,457      1,849      21%   04/01/11
   8      St George                          UT       6,000      7,000      1,000      17%   04/01/11
   2      Brick                              NJ       7,475      7,000      -475       -6%   04/06/11
   2      Astoria Queens                     NY       5,635     10,653      5,018      89%   04/15/11
   9      Los Angeles: University Village    CA      14,692     14,883       191        1%   04/16/11
   5      Chicago SE                         IL      12,103     17,287      5,184      43%   04/21/11
   2      Jamestown                          NY       7,364      7,421       57        1%    04/23/11
   1      Framingham                         MA       8,122      9,340      1,218      15%   05/01/11
   4      Decatur-S DeKalb                   GA       7,317     11,349      4,032      55%   05/01/11
   4      Decatur-S DeKalb                   GA       3,640        0       -3,640    -100%   05/01/11
   5      Middletown                         OH       6,875      7,543       668       10%   05/01/11




The Social Security Administration’s Facilities Management (A-13-11-21110)                               F-2
                                                                      SQ.             Effective
                                             Current    Proposed     Foot        %     Date of
 Region                 City        State    SQ. Feet   SQ. Feet   Change    Change   Change
   5      Farmington Hill            MI        4,415      6,647      2,232     51%    05/01/11
   4      Carrollton                 GA        8,516      9,867      1,351     16%    05/09/11
   2      Brooklyn SSCC              NY       14,903     11,132     -3,771    -25%    05/15/11
   5      Indianapolis (W)           IN        7,754     11,000      3,246     42%    05/15/11
   5      Detroit NW                 MI       14,344     13,147     -1,197     -8%    05/15/11
   5      Royal Oak                  MI        5,889      9,980      4,091     69%    05/15/11
   6      Houma                      LA       10,619     11,220       601       6%    05/15/11
   4      McMinnville                TN        7,072      6,250      -822     -12%    05/31/11
   1      Norwalk                    CT        5,182      6,185      1,003     19%    06/01/11
   4      Winder                     GA        8,479      9,504      1,025     12%    06/01/11
   4      Goldsboro                  NC        9,520     12,766      3,246     34%    06/01/11
   7      Kennett                    MO        5,711      7,316      1,605     28%    06/01/11
   7      Union                      MO        5,175      6,850      1,675     32%    06/01/11
   9      Globe                      AZ        2,447      3,599      1,152     47%    06/01/11
   9      Manteca                    CA        6,500      8,959      2,459     38%    06/01/11
   9      Santa Clarita (Newhall)    CA        4,797      8,780      3,983     83%    06/01/11
   9      Gilroy                     CA        5,743      7,151      1,408     25%    06/01/11
   2      Corning                    NY        7,539      9,515      1,976     26%    06/15/11
   2      Troy                       NY        8,250      9,515      1,265     15%    06/15/11
   6      New Orleans (W)            LA       15,405     15,867       462       3%    06/15/11
   2      East Village               NY       11,500     10,186     -1,314    -11%    06/30/11
   3      Accomac                    VA        5,155      5,386       231       4%    07/01/11
   9      Sonora                     CA        5,277      6,592      1,315     25%    07/01/11
   9      Fremont                    CA        9,070     11,399      2,329     26%    07/01/11
   9      National City              CA        8,412     13,706      5,294     63%    07/21/11
   4      Venice                     FL        5,606      7,606      2,000     36%    08/01/11
   4      Anderson                   SC        8,200      9,787      1,587     19%    08/01/11
   5      Cleveland (E)              OH        7,301      7,921       620      8%     08/01/11
   2      Jersey City                NJ       20,993     19,477     -1,516     -7%    08/15/11
   2      Parsippany                 NJ       10,279     10,396       117       1%    08/19/11
   9      Chatsworth                 CA       17,256     15,718     -1,538     -9%    08/21/11
   4      Lawrenceburg               TN        6,992      5,858     -1,134    -16%    08/31/11
   2      East Bronx                 NY       19,471     16,402     -3,069    -16%    09/01/11
   2      Bayamon                    PR       10,120      7,801     -2,319    -23%    09/01/11
   4      Pembroke Pines             FL       14,871     15,690       819       6%    09/01/11
   4      Palatka                    FL        4,940      6,913      1,973     40%    09/01/11
   4      Valrico                    FL        9,092     12,023      2,931     32%    09/01/11
   5      Sterling Heights           MI        7,360      9,099      1,739     24%    09/01/11
   5      West Toledo                OH        9,320      9,267       -53      -1%    09/01/11
   8      Minot                      ND       10,517     10,725       208       2%    09/01/11
   8      Sioux Falls                SD       10,593     10,725       132       1%    09/01/11
   8      Sioux Falls                SD         489        750        261      53%    09/01/11
   9      Fresno West                CA        7,680      9,860      2,180     28%    09/01/11
   2      Tom's River                NJ        7,440      8,275       835      11%    09/04/11
   6      Galveston                  TX        9,122     11,631      2,509     28%    09/15/11
   6      San Angelo                 TX        9,933      9,258      -675      -7%    09/15/11
   2      So Bronx                   NY       15,985     16,437       452       3%    09/30/11
   2      NY-Uptown                  NY       26,086     21,022     -5,064    -19%    09/30/11
   2      St Croix Vi                VI        3,672      4,155       483      13%    09/30/11
   2      Carolina                   PR       10,812      9,299     -1,513    -14%    09/30/11
   2      Cayey                      PR        4,922      5,762       840      17%    09/30/11
   2      Sommerville                NJ        5,635      5,645        10       0%    09/30/11




The Social Security Administration’s Facilities Management (A-13-11-21110)                        F-3
                                                                     SQ.                Effective
                                             Current    Proposed    Foot         %       Date of
 Region                City          State   SQ. Feet   SQ. Feet   Change     Change    Change
    7     Gladstone                   MO       6,989      8,544     1,555      22%      09/30/11
    8     Dickinson                   ND        350        350        0         0%      09/30/11
   10     Pocatello                   ID       8,100      8,107       7         0%      09/30/11
   10     Portland (East)             OR      10,163     13,692     3,529      35%      09/30/11
   10     Walla Walla                 WA       3,715      4,104      389       10%      09/30/11


                        Table 2: FY 2011 SSA Field Office Expansions

                                                                     SQ.                Effective
                                             Current    Proposed    Foot                 Date of
 Region               City          State    SQ. Feet   SQ. Feet   Change    % Change   Change
   9      Santa Maria                CA        8,306      8,510      204        2%      10/01/10
   6      Moore                      OK       12,260     16,179     3,919      32%      10/15/10
   3      Fairfax                    VA        5,220      7,420     2,200      42%      11/01/10
   4      Greensboro                 NC       13,594     17,400     3,806      28%      01/01/11
   9      San Diego TSC              CA       14,847     15,595      748        5%      01/01/11
   9      Auburn                     CA        6,972      8,205     1,233      18%      08/30/11
   3      Greenbelt                  MD        7,224      9,200     1,976      27%      09/01/11
   5      Mankato                    MN        6,030      6,390      360        6%      09/30/11


                        Table 3: FY 2011 SSA Field Office Reductions

                                                                     SQ.                Effective
                                             Current    Proposed     Foot                Date of
 Region                City         State    SQ. Feet   SQ. Feet   Change    % Change   Change
   2      Peekskill                  NY       7,916       6,969      -947      -12%     12/01/10
   2      Boro Hall Brooklyn         NY       23,460     16,938     -6,522     -28%     05/15/11
   4      Miami Beach                FL       13,234      8,455     -4,779     -36%     09/01/11
   6      Plainview                  TX       6,400       4,900     -1,500     -23%     09/15/11


                        Table 4: FY 2012 SSA Field Office Relocations

                                                                      SQ.               Effective
                                             Current    Proposed     Foot                Date of
 Region               City          State    SQ. Feet   SQ. Feet   Change    % Change   Change
   1      Littleton                  NH       4,581       6,350      1,769      39%     04/01/12
   1      Portsmouth                 NH       10,048     10,850       802        8%     05/01/12
   1      Bangor                     ME       10,421     16,090      5,669      54%     11/01/11
   1      Fitchburg                  MA       5,881       7,077      1,196      20%     02/01/12
   1      Holyoke                    MA       12,018     11,725      -293       -2%     03/01/12
   1      Waterbury                  CT       9,002       9,510       508        6%     12/01/11
   2      North Bronx                NY       18,860     17,457     -1,403      -7%     10/30/11
   2      NY-Washington Heights      NY       18,000     15,722     -2,278     -13%     11/01/11
    2     W Nyack                    NY      11,240      11,280      40          0%     01/15/12
    2     Chinatown                  NY      7,700       8,710      1,010       13%     02/15/12
    2     Grand Central/UN           NY      13,800      10,288    -3,512      -25%     03/31/12
    2     Long Beach                 NY      4,025       4,859       834        21%     09/01/12
    2     Geneva                     NY      11,142      9,336     -1,806      -16%     04/30/12
    2     Niagara Falls              NY      11,700      11,702       2          0%     04/30/12
    2     Queensbury                 NY      8,987       9,164       177         2%     09/30/12
    2     Dunkirk                    NY      3,897       4,977      1,080       28%     05/01/12
    2     Hudson                     NY      6,150       6,154        4          0%     04/15/12




The Social Security Administration’s Facilities Management (A-13-11-21110)                          F-4
                                                                     SQ.               Effective
                                            Current    Proposed     Foot                Date of
 Region                City         State   SQ. Feet   SQ. Feet   Change    % Change   Change
   2      Fajardo                    PR      6,350       5,978      -372       -6%     08/06/12
   2      Guayama                    PR      6,915       7,162       247        4%     09/30/12
   2      East Orange                NJ      11,300      9,344     -1,956     -17%     09/09/12
   2      Woodbridge                 NJ      11,534     13,423      1,889      16%     09/09/12
   2      Olean                      NY      10,661      9,937      -724       -7%     05/01/12
   2      Elmira                     NY      8,700       7,162     -1,538     -18%     12/15/11
   3      Cambridge                  MD      7,467       6,191     -1,276     -17%     08/01/12
   3      Petersburg                 WV      3,450       3,945       495       14%     08/01/12
   4      Dothan                     AL      13,919     13,919        0         0%     02/01/12
   4      Talladega                  AL      7,317       8,000       683        9%     06/01/12
   4      Andalusia                  AL      7,224       8,000       776       11%     05/01/12
   4      Fairhope                   AL      7,587       8,500       913       12%     06/01/12
   4      Florence                   AL      14,206     16,000      1,794      13%     07/01/12
   4      Belle Glade                FL      5,785       6,245       460        8%     10/01/11
   4      Little River               FL      8,200       9,507      1,307      16%     11/01/11
   4      Little River               FL      2,515         0       -2,515    -100%     11/01/11
   4      Panama City                FL      11,781     11,968       187        2%     10/01/11
   4      Gainesville                FL      12,584     12,584        0         0%     12/01/11
   4      Cordele                    GA      8,325       6,977     -1,348     -16%     04/01/12
   4      Newnan                     GA      5,816       5,816        0         0%     05/01/12
   4      Warner Robins              GA      11,200      9,039     -2,161     -19%     06/01/12
   4      Waycross                   GA      12,358      9,299     -3,059     -25%     08/01/12
   4      Henderson                  KY      4,517       4,517        0         0%     12/01/11
   4      Richmond                   KY      6,928       6,928        0         0%     01/01/12
   4      Hopkinsville               KY      9,370       9,370        0         0%     06/01/12
   4      Natchez                    MS      5,645       6,584       939       17%     01/01/12
   4      Moss Point                 MS      7,071       6,610      -461       -7%     02/01/12
   4      Columbus                   MS      9,472       8,377     -1,095     -12%     02/01/12
   4      Meridian                   MS      7,366       7,328       -38       -1%     04/01/12
   4      Hickory                    NC      10,705     15,714      5,009      47%     10/01/11
   4      Asheville                  NC      14,400     14,400        0         0%     06/01/12
   4      Washington                 NC      6,000       6,000        0         0%     06/01/12
   4      Statesville                NC      6,063       7,142      1,079      18%     07/01/12
   4      Rock Hill                  SC      7,343       9,594      2,251      31%     10/01/11
   4      Aiken                      SC      6,796       7,500       704       10%     03/01/12
   4      Greenwood                  SC      8,007       8,900       893      11%      10/01/11
   4      Conway                     SC      9,726       7,858     -1,868     -19%     01/01/12
   4      Tullahoma                  TN      8,505       6,323     -2,182     -26%     03/01/12
   5      Sterling                   IL      4,100       4,851       751       18%     01/02/12
   5      Kenosha                    WI      7,360       7,504       144        2%     01/03/12
   5      Sheboygan                  WI      5,072       5,900       828       16%     04/01/12
   5      Waukesha                   WI      10,540     10,810       270        3%     08/01/12
   5      Athens                     OH      5,000       5,000        0         0%     10/15/11
   5      Batavia                    OH      6,768       6,768        0         0%     09/30/12
   6      Oklahoma City              OK      16,970     25,057      8,087      48%     09/15/12
   6      Natchitoches               LA      5,624       6,124       500        9%     05/15/12
   6      Lawton                     OK      9,298      10,461      1,163      13%     10/15/11
   6      Lake Charles               LA      9,504      11,189      1,685      18%     10/15/11
   6      San Marcos                 TX      5,959       6,783       824       14%     01/15/12
    6     McAllen                    TX      20,201     27,791     7,590      38%      04/15/12
    6     West Memphis               AR      5,950      6,354       404        7%      04/15/12
    6     Kenner                     LA      10,205     15,237     5,032      49%      12/15/11




The Social Security Administration’s Facilities Management (A-13-11-21110)                         F-5
                                                                      SQ.               Effective
                                             Current    Proposed     Foot                Date of
 Region                 City         State   SQ. Feet   SQ. Feet   Change    % Change   Change
    6     Fort Worth(Dtn)             TX      23,772     26,583      2,811      12%     06/15/12
    6     Little Rock                 AR      26,654     20,443     -6,211     -23%     04/15/12
    7     Lenexa                      KS      9,410      13,400      3,990      42%     03/01/12
    7     Kansas City                 KS      14,742     12,018     -2,724     -18%     01/01/12
    7     North Platte                NE      6,866       7,895      1,029      15%     06/01/12
    7     Pittsburg                   KS      5,704       5,614       -90       -2%     03/01/12
    7     St. Louis (CWE)             MO      11,806     13,600      1,794      15%     01/01/12
    7     Davenport                   IA      11,057     12,105      1,048       9%     01/01/12
    7     St. Louis (SS)              MO      10,199     12,400      2,201      22%     01/01/12
    8     Helena                      MT       930        1,000        70        8%     01/01/12
    8     Bismarck                    ND      7,559       8,000       441        6%     12/16/11
    9     Stockton                    CA      17,800     18,541       741        4%     10/30/11
    9     Oxnard                      CA      8,924       9,859       935       10%     12/30/11
    9     Indio                       CA      6,900       9,477      2,577      37%     12/30/11
    9     Elko                        NV      1,401       3,163      1,762     126%     03/01/12
    9     Lodi                        CA      8,670       8,901       231        3%     03/01/12
    9     Phoenix CDI                 AZ      2,867       2,320      -547      -19%     04/01/12
    9     Placerville                 CA      7,200       9,100      1,900      26%     04/10/12
    9     San Marcos                  CA      10,095     11,934      1,839      18%     06/15/12
    9     Chico                       CA      8,837      11,145      2,308      26%     09/01/12
   10     Albany                      OR      6,667       8,117      1,450      22%     09/30/12
   10     Eugene                      OR      11,600     15,196      3,596      31%     09/30/12
   10     Everett                     WA      11,495     14,037      2,542      22%     09/30/12
   10     Grays Karbor                WA      5,897       6,283       386        7%     09/30/12
   10     Idaho Falls                 ID      5,582       8,108      2,526      45%     09/30/12
   10     Klamath Falls               OR      1,380       1,506       126        9%     09/30/12
   10     LaGrande                    OR      3,995       3,775      -220       -6%     09/30/12
   10     Longview                    WA      5,101       4,618      -483       -9%     09/30/12
   10     Lynnwood                    WA      6,960       6,960         0        0%     09/30/12
   10     Olympia                     WA      10,251     13,990      3,739      36%     09/30/12
   10     Pendleton                   OR      3,600       3,351      -249       -7%     09/30/12
   10     Puyallup                    WA      8,300       8,062      -238       -3%     09/30/12
   10     Seattle Downtown            WA      12,974      9,901     -3,073     -24%     09/30/12
   10     Seattle North               WA      6,447       6,110      -337       -5%     09/30/12
   10     Seattle South               WA      9,835       7,766     -2,069     -21%     09/30/12
   10     Tacoma                      WA      15,622     15,138      -484       -3%     09/30/12


                        Table 5: FY 2012 SSA Field Office Expansions

                                                                     SQ.                Effective
                                             Current    Proposed    Foot                 Date of
 Region                City          State   SQ. Feet   SQ. Feet   Change    % Change   Change
   9      Ukiah                       CA      6,570       7,327      757       12%      02/12/12
   9      Lakeport                    CA      4,411       5,919     1,508      34%      02/28/12


                         Table 6: FY 2012 SSA Field Office Reductions

                                                                     SQ.                Effective
                                             Current    Proposed     Foot       %        Date of
 Region                City          State   SQ. Feet   SQ. Feet   Change    Change     Change
   2      Yonkers                     NY      12,299      8,831     -3,468    -28%      10/01/11
   2      Montclair                   NJ      7,529       6,946      -583      -8%      12/01/11




The Social Security Administration’s Facilities Management (A-13-11-21110)                          F-6
                                                                                       Appendix G

Service Delivery Assessment Process1
The Social Security Administration (SSA) uses service delivery assessments (SDA) to
analyze offices and ensure service delivery is consistent with the needs of the area
being served. Information about the service area’s demographics, workloads,
accessibility, unique characteristics, and special needs should be considered and
documented as part of the SDA. Examples follow.

    •   Population
    •   Staffing
    •   Number of beneficiaries receiving Title II and Title XVI payments 2
    •   Historical statistical data
    •   Access to highways, roads, and public transportation
    •   Availability, convenience, and cost of parking
    •   Handicap accessibility
    •   Safety of the office location
    •   Major Institutions, large employers, advocacy groups, and social
        service/community organizations

The SDA process consists of the following steps.

    1. Identification of facilities that need an SDA review either because it is scheduled,
       or because significant changes in workload, demographic, staffing, or space
       considerations warrant a comprehensive review of the service area needs.

    2. Data collection from SSA-approved sources, such as Claritas iMark, 3 and other
       management information systems or local sources.

    3. Comprehensive analysis and documentation of the requisite data for the SDA.




1
 SSA, AIMS, GAM, 12.05. This guidance applies to SDAs completed by SSA’s Offices of Operations
and Disability Adjudication and Review for field and hearing offices.
2
  Title II of the Social Security Act (the Act) provides benefits to qualified retired and disabled workers and
their dependents as well as to survivors of insured workers. § 201 et seq., 42 U.S.C. § 401 et seq.,
Title XVI of the Act, provides payments to individuals who have limited income and resources and who
are either age 65 or older, blind, or disabled. § 1601, 42 U.S.C. § 1381 et seq.

3
  The Claritas (iMark) Online application produces reports with census-type information on population,
age, gender, race, ethnicity, income, education, housing, marital status, etc. It provides current
information and projections for the next 5 years.


The Social Security Administration’s Facilities Management (A-13-11-21110)                                  G-1
   4. Presentation of the SDA in a package that contains a recommendation,
      summary, data analysis, and narrative discussion of the service area needs. The
      SDA package should clearly state whether the review results in either a
      recommendation to maintain current service or to change the existing service.

   5. SDA recommendations are forwarded through area management to the
      appropriate components in the region for review.

   6. With the Regional Commissioner’s approval, recommendations for change
      proposals are forwarded to the Associate Commissioner for Office of Public
      Service and Operations Support for review and comment or approval by the
      Deputy Commissioner for Operations (DCO).

   7. After DCO approval and coordination with the Office of Legislation and
      Congressional Affairs, discussions about any significant service delivery change
      should be held with affected U.S. Senators, Representatives, and their respective
      staff members at the appropriate time. These discussions should be held only
      after DCO approval of the SDA.

Regional Commissioners are responsible for overseeing the SDA process in their
regions. Each service area should be reviewed at least once every 5 years.




The Social Security Administration’s Facilities Management (A-13-11-21110)          G-2
                                                                                   Appendix H

Office of Disability Adjudication and Review’s
New Facilities1
       Type of Facility                       Location                         Opening Date
     Hearing Office               Akron, Ohio                                     2010
     Hearing Office               Anchorage, Alaska                               2010
     Hearing Office               Covington, Georgia                              2010
     Hearing Office               Fayetteville, North Carolina                    2010
     Hearing Office               Livonia, Michigan                               2010
     Hearing Office               Madison, Wisconsin                              2010
     Hearing Office               Mount Pleasant, Michigan                        2010
     Hearing Office               Phoenix, Arizona                                2010
     Hearing Office               St. Petersburg, Florida                         2010
     Hearing Office               Tallahassee, Florida                            2010
     Hearing Office               Toledo, Ohio                                    2010
     Hearing Office               Topeka, Kansas                                  2010
     Hearing Office               Valparaiso, Indiana                             2010
     Satellite Office             Boise, Idaho                                    2010
     Satellite Office             Fort Myers, Florida                             2010
     Satellite Office             Rio Grande Valley, Texas                        2010
     Hearing Office               Augusta, Georgia                                2011
     Hearing Office               Columbia, Missouri                              2011
     Hearing Office               El Paso, Texas                                  2011
     Hearing Office               Franklin, Tennessee                             2011
     Hearing Office               Hoover, Alabama                                 2011
     Hearing Office               Jersey City, New Jersey                         2011
     Hearing Office               Lawrence, Massachusetts                         2011
     Hearing Office               Moreno Valley, California                       2011
     Hearing Office               Muncie, Indiana                                 2011
     Hearing Office               Rochester, New York                             2011
     Hearing Office               St. Paul, Minnesota                             2011
     Hearing Office               Tacoma, Washington                              2011
     Satellite Office             Eureka, California                              2011
     Satellite Office             Helena, Montana                                 2011
     Satellite Office             Marquette, Michigan                             2011
     Satellite Office             Reno, Nevada                                    2011

1
 In addition to the new offices, the Office of Disability Adjudication and Review reported critical office
expansions are expected to be completed in 2010 for the offices located in Las Vegas, Nevada and Sioux
Falls, South Dakota.


The Social Security Administration’s Facilities Management (A-13-11-21110)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
